                                                                                Report No. DODIG-2013-080




              I nspec
                nspe c tor Ge ne ral
                                                       Department of Defense

              M AY 9 , 2 0 1 3




                     Better Oversight and Accountability
                     Needed for the U.S. Army Special
                     Operations Command C-12 Aircraft




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
         I n t e g r i t y  e f f i c i e n c y  a c c o u n ta b i l i t y  e x c e l l e n c e




                                            Mission
          Our mission is to provide independent, relevant, and timely
          oversight of the Department of Defense that: supports the
          warfighter; promotes accountability, integrity, and efficiency;
          advises the Secretary of Defense and Congress; and informs
                                   the public.


                                              Vision
          Our vision is to be a model oversight organization in the federal
          government by leading change, speaking truth, and promoting
          excellence; a diverse organization, working together as one
               professional team, recognized as leaders in our field.




                          Fraud, Waste and Abuse
                         HOTLINE
                         1.800.424.9098 • www.dodig.mil/hotline




For more information about whistleblower protection, please see the inside back cover.
                                   Results in Brief
                                   Better Oversight and Accountability Needed for the
                                   U.S. Army Special Operations Command C-12 Aircraft



May 9, 2013                                          Findings Continued

Objective                                            Although USASOC officials generally complied with DoD guidance
                                                     when requesting and approving the use of military airlift, they
We conducted this audit in response to a referral    did not comply with Federal and DoD guidance when justifying
from the U.S. Army Office of the Inspector           the cost of using military airlift flights. Specifically, USASOC
General. In August 2000, the Army transferred        officials did not use the C-12’s actual cost when determining
a C-12 Operational Support Airlift aircraft to the   the most cost effective flight for administrative travel. Instead,
U.S. Special Operations Command (USSOCOM)            USASOC officials used the Army’s FY 2011 standard cost of
to be used by the U.S. Army Special Operations       $1,228 and FY 2012 standard cost of $1,311. In addition,
Command (USASOC) for administrative travel           USASOC officials improperly reduced the cost in FY 2012 by $262
of senior officials. We determined whether DoD       (20-percent), to account for pilot training. This occurred because
had adequate oversight and accountability of         USSOCOM officials directed USASOC to use pre-established DoD
the C-12 aircraft and whether USASOC officials       rates and endorsed the training reduction to justify additional
complied with applicable Federal and DoD             flights on the C-12 aircraft. As a result, DoD lacks reasonable
guidance when justifying the use of the aircraft.    assurance that USASOC officials used the most cost effective
                                                     flights.
Findings
USSOCOM officials did not provide adequate           Recommendations
oversight and accountability of the USASOC           We recommend that the Commander, USSOCOM, assume
C-12 aircraft in accordance with DoD guidance.       responsibility for providing oversight and accountability of the
USSOCOM officials did not report the aircraft in     C-12 aircraft, report the aircraft in their inventory, and make the
their Operational Support Airlift inventory for      aircraft visible for centralized scheduling. We also recommend
the Chairman of the Joint Chiefs of Staff’s FY       that the Commanding General, USASOC, develop and use the
2012 review. In addition, USSOCOM officials          actual cost per flying hour rate for the C-12 aircraft.
did not make the aircraft visible for centralized
scheduling. This occurred because USSOCOM,
Army G-3/5/7, and USASOC officials expressed         Comments
confusion about who was responsible for              All required commands responded; comments were responsive
providing oversight and accountability of the        and met the intent of our recommendations. No additional
aircraft. As a result, USASOC may be operating       comments are required.
an underused aircraft in excess of the required
Operational Support Airlift aircraft inventory. In
addition, DoD is at an increased risk that misuse
of the aircraft by senior officials may occur and
go undetected.




Visit us on the web at www.dodig.mil

                                                                        DODIG-2013-080 (Project No. D2012-D000JA-0193.000) │ i
                   Recommendations Table
                                                          Recommendations Requiring   No Additional Comments
                               Management                        Comment                     Required
                    Under Secretary of Defense for
                    Acquisition, Technology, and                                               B.1
                    Logistics
                    Commander, U.S. Special                                                  A.1, A.2
                    Operations Command
                    Commanding General, U.S. Army                                              B.2
                    Special Operations Command




ii │ DODIG-2013-080 (Project No. D2012-D000JA-0193.000)
                                    FOR OFFICIAL USE ONLY

                                       INSPECTOR GENERAL
                                        DEPARTMENT OF DEFENSE
                                        4800 MARK CENTER DRIVE
                                     ALEXANDRIA, VIRGINIA 22350-1500




                                                                              May 9, 2013

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
		                          TECHNOLOGY, AND LOGISTICS
		                      COMMANDER, U.S. SPECIAL OPERATIONS COMMAND
		                      AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: Better Oversight and Accountability Needed for the U.S. Army Special
	          Operations Command C-12 Aircraft (Report No. DODIG-2013-080)

We are providing this report for your information and use. We conducted this audit in
response to a U.S. Army Office of the Inspector General referral. In August 2000, the
Army transferred a C-12 Operational Support Airlift aircraft to the U.S. Special Operations
Command to be used by the U.S. Army Special Operations Command for administrative
travel. However, U.S. Special Operations Command officials did not assume responsibility
for providing oversight and accountability of the aircraft. In addition, U.S. Army Special
Operations Command officials did not comply with Federal and DoD guidance when
justifying the cost of using the aircraft.

We considered management comments on a draft of this report when preparing the final
report. Comments from the Assistant Secretary of Defense for Logistics and Materiel
Readiness responding for the Under Secretary of Defense for Acquisition, Technology,
and Logistics, and comments from the U.S. Special Operations Command, and U.S. Army
Special Operations Command conformed to the requirements of DoD Directive 7650.3;
therefore, we do not require additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 (DSN 664-8905).




						                                           Amy J. Frontz
						                                           Principal Assistant Inspector General
						                                              for Auditing

cc: Director, Joint Staff

                        DRAFT REPORT           FOR OFFICIAL USE ONLY
                                                                                          DODIG-2013-080 │ iii
                  Contents
                  Introduction
                  Objective__________________________________________________________________________________________1
                  Background_______________________________________________________________________________________1
                  Review of Internal Controls_____________________________________________________________________3

                  Finding A: U.S. Special Operations Command
                  Did Not Provide Adequate Oversight and
                  Accountability of the Aircraft________________________________________________4
                  Aircraft Not Reported to the Chairman of the Joint Chiefs of Staff___________________________4
                  Officials Did Not Make the Aircraft Visible for Scheduling____________________________________4
                  Officials Expressed Confusion About Responsibility for Oversight
                  and Accountability_______________________________________________________________________________5
                  Lack of Compliance Could Make Aircraft Susceptible to Misuse_____________________________6
                  Recommendation, Management Comments, and Our Response_____________________________6

                  Finding B: U.S. Army Special Operations
                  Command Partially Complied With
                  Government Aircraft Guidance _ __________________________________________8
                  Guidance for the Use of Government Aircraft__________________________________________________8
                  Officials Generally Complied With Guidance for Using Government Aircraft_______________9
                  Officials Did Not Comply With Guidance To Justify Costs___________________________________ 10
                  U.S. Special Operations Command Directed Use of DoD Rates and Endorsed
                  the Training Reduction________________________________________________________________________ 11
                  Most Cost Effective Flights May Not Have Been Used_______________________________________ 12
                  Recommendations, Management Comments, and Our Response__________________________ 13

                  Appendix
                  Scope and Methodology_______________________________________________________________________ 15
                        Use of Computer-Processed Data _____________________________________________________ 15
                        Use of Technical Assistance_____________________________________________________________ 16




iv │ DODIG-2013-080
Management Comments
Assistant Secretary of Defense for Logistics and Materiel Readiness______________________ 17
U.S. Special Operations Command____________________________________________________________ 18
U.S. Army Special Operations Command_____________________________________________________ 19

Acronyms and Abbreviations______________________________________________ 20




                                                                                                 DODIG-2013-080 │ v
A C-12 Huron aircraft prepares to land at dusk at an undisclosed air base.		   Source: U.S. Air Force photo http://www.defenseimagery.mil/
                                                                                               Introduction




Introduction
Objective
We conducted this audit in response to a referral from the U.S. Army Office of the Inspector
General. Our objective was to determine whether U.S. Army Special Operations Command
(USASOC) officials were complying with applicable Federal and DoD guidance when
justifying the use of Military Airlift (MILAIR) aircraft. We also determined whether DoD
had adequate oversight and accountability of the C-12 aircraft. See the appendix for a
discussion of the audit scope and methodology.


Background
In May 2012, Department of the Army Inspector General officials conducted an
investigation into allegations of MILAIR misuse at USASOC. The officials substantiated
one allegation that a senior USASOC official traveled on MILAIR without proper approval.
During the preliminary inquiry, Department of the Army Inspector General officials
expressed concerns with the costs used to justify MILAIR requests.


Army G-3/5/7
The Deputy Chief of Staff, Army G-3/5/7, is responsible for annually reviewing and
establishing Army aircraft requirements. The Army G-3/5/7 establishes aviation policy
and oversees aviation program execution providing a single Army aviation point of contact
for field Commanders and Joint Staff officials.


U.S. Special Operations Command
U.S. Special Operations Command (USSOCOM) is a Combatant Command responsible
for providing fully capable special operations forces to defend the United States and its
interests. To fulfill those responsibilities, USSOCOM receives Major Force Program-11
funds, a specific appropriation to support the development, acquisition, and sustainment
activities of special operations equipment. USSOCOM provides those funds to each of its
four subordinate commands, including USASOC, for the purposes of conducting operations
and maintaining equipment.


USASOC
USASOC is both a U.S. Army Service Component Command and a subordinate command
to USSOCOM. USASOC is responsible for training, mobilizing, and sustaining Army special
operations forces and conducting special operations worldwide in support of Combatant




                                                                                           DODIG-2013-080 │ 1
Introduction



                 Commanders and other agencies, as directed.                                     Within USASOC, the Army Special
                 Operations Aviation Command is responsible for providing aviation support to USASOC,
                 which includes operating USASOC aircraft.


                 USASOC C-12 Aircraft
                 In August 2000, the Army
                 transferred a C-12 Operational
                 Support Airlift (OSA) aircraft
                 to USSOCOM. The C-12 aircraft
                 was to be used by USASOC for
                 administrative travel1 of senior
                 officials. OSA aircraft, as defined
                 by DoD guidance, are fixed-wing
                 aircraft acquired or retained
                 primarily for the movement
                 of      high-priority           passengers
                 with time-, place-, or mission-                        Figure 1. C-12 Exterior 	          Source: DoD OIG
                 sensitive requirements.                   The
                 C-12 aircraft, valued at $800,865, has a maximum seating capacity of seven passengers and
                 two crew members. See figures 1 and 2 for exterior and interior pictures of the aircraft.



                                                                                                         USASOC officials maintain and
                                                                                                         operate the C-12 aircraft using
                                                                                                         USSOCOM Major Force Program-
                                                                                                         11 operations and maintenance
                                                                                                         funds.        In addition, USASOC
                                                                                                         officials program 480 hours
                                                                                                         per year to fly the aircraft. From
                                                                                                         June 2011 through September
                                                                                                         2012, USASOC officials flew
                                                                                                         97 OSA missions on the aircraft
                                                                                                         to give speeches and attend
                                                                                                         conferences, meetings, site visits,
                     Figure 2. C-12 Interior 	         Source: DoD OIG
                                                                                                         or training.



                 	1	
                       Administrative travel, also referred to as “other official travel,” is travel to give speeches or to attend conferences, meetings,
                       site visits, or training. A USASOC official also stated that the C-12 aircraft was used for staff coordination meetings with
                       both USSOCOM and the Department of the Army.




2 │ DODIG-2013-080
                                                                                                Introduction



Military Airlift Guidance
The Under Secretary of Defense for Acquisition, Technology, and Logistics maintains two
issuances prescribing guidance for MILAIR travel and OSA aircraft. DoD Directive 4500.56,
“DoD Policy on the Use of Government Aircraft and Air Travel,” April 14, 2009, establishes
policy for the transportation of DoD passengers and the use of Government aircraft.
DoD Instruction 4500.43, “Operational Support Airlift (OSA),” May 18, 2011, establishes
policy, assigns responsibility, and provides procedures for the use of OSA aircraft.


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses. Specifically, USSOCOM officials did not provide adequate oversight and
accountability of the C-12 aircraft. Furthermore, USSOCOM improperly directed USASOC
to use procedures not in compliance with Federal and DoD cost guidance. We will provide
a copy of the report to the senior officials responsible for internal controls at USSOCOM.




                                                                                             DODIG-2013-080 │ 3
Finding A




                 Finding A
                 U.S. Special Operations Command Did Not Provide
                 Adequate Oversight and Accountability of the Aircraft
                 USSOCOM did not provide adequate oversight and accountability of the USASOC C-12
                 aircraft in accordance with DoD guidance.        Specifically, USSOCOM officials did not
                 report the aircraft in their OSA inventory for the Chairman of the Joint Chiefs of Staff’s
                 FY 2012 review. In addition, USSOCOM officials did not make the aircraft visible for
                 centralized scheduling. This occurred because USSOCOM, Army G-3/5/7, and USASOC
                 officials expressed confusion about who was responsible for providing oversight and
                 accountability of the aircraft. As a result, USASOC may be operating an underused aircraft
                 in excess of the required OSA aircraft inventory. In addition, DoD is at an increased risk
                 that misuse of the aircraft by senior officials may occur and go undetected.



                 Aircraft Not Reported to the Chairman of the Joint
                 Chiefs of Staff
                 USSOCOM officials did not comply with DoD Instruction 4500.43, which requires the
                 Secretaries of the Military Departments and the Combatant Commanders to annually
                 report OSA aircraft inventories to the Chairman of the Joint Chiefs
                 of Staff. Specifically, USSOCOM officials stated that the USASOC
                 C-12 aircraft was not included in their OSA aircraft inventory.
                                                                                       DoD Components
                 Joint Staff officials responsible for conducting the FY 2012           are required to
                 review verified the USASOC C-12 aircraft was not included in        dispose of any excess
                 the OSA aircraft inventory. DoD Instruction 4500.43 requires               aircraft.
                 the Chairman of the Joint Chiefs of Staff to review the OSA
                 aircraft inventory and validate wartime requirements used to
                 determine the appropriate fleet size. On completion of the review,
                 DoD Components are required to dispose of any excess aircraft. As a result of not including
                 the aircraft in the review, DoD is at an increased risk that USASOC may be operating the
                 C-12 aircraft in excess of the required OSA aircraft inventory.


                 Officials Did Not Make the Aircraft Visible
                 for Scheduling
                 USSOCOM officials did not comply with DoD Instruction 4500.43, which requires the
                 Secretaries of the Military Departments and the Combatant Commanders to provide




4 │ DODIG-2013-080
                                                                                                                                    Finding A



visibility of OSA aircraft to U.S. Transportation Command (USTRANSCOM) for centralized
scheduling.2 Instead, USASOC officials stated that the aircraft was retained exclusively
for their own use and that no other commands had ever used it. USTRANSCOM officials
verified that they had no visibility of the C-12 aircraft and that USASOC had never offered
the aircraft for centralized scheduling. A USASOC official also stated that USASOC might
not be able to offer the C-12 aircraft to USTRANSCOM because USASOC does not have
pilots specifically dedicated to the C-12 aircraft. Instead, pilots are only available to fly the
C-12 aircraft when they are not flying other aircraft.

Had USSOCOM officials made the aircraft visible for centralized scheduling, they could
have increased the use of the aircraft by scheduling it for other missions. For example, from
June 2011 through September 2012, USASOC officials flew the C-12 aircraft on average
only 11 days per month, leaving approximately 19 days per month the C-12 aircraft could
have been made available for other missions. Furthermore, of the 480 programmed
flying hours per year, USASOC reported flying only 253 hours (53 percent) in FY 2011 and
359 hours (75 percent) in FY 2012. In contrast, the Army programs 600 flying hours
per year for its C-12 aircraft fleet. The Army National Guard, who operates 57 of the
80 Army C-12 aircraft in the United States, reported that on average each C-12 in its fleet
flew 519 hours (87 percent) in FY 2011 and 507 hours (85 percent) in FY 2012. One
USASOC official attributed the low usage in FY 2011 and FY 2012 to extended periods of
maintenance when the aircraft could not be used.


Officials Expressed Confusion About Responsibility for
Oversight and Accountability
USSOCOM, Army G-3/5/7, and USASOC officials expressed confusion about who was
responsible for providing oversight and accountability of the aircraft. Although USSOCOM
officials were responsible for reviewing and approving a limited number of C-12 flight
requests, USSOCOM officials stated that USASOC was responsible for the C-12 aircraft
because it was included on USASOC’s property records. A USASOC official stated that
USASOC reports the aircraft’s usage and status to the Army. An Army G-3/5/7 official
stated that he was aware of the aircraft because USASOC reports the usage and status
to them. However, the official stated that USSOCOM was responsible for oversight and
accountability because the Army transferred the aircraft to USSOCOM. USSOCOM should
assume oversight and accountability responsibilities for the C-12 aircraft to include
reporting it to the Chairman of the Joint Chiefs of Staff for the FY 2013 OSA inventory
review, and making it visible to USTRANSCOM for centralized scheduling.

	2	
      USTRANSCOM centrally schedules and coordinates joint service OSA flights for high priority DoD passengers with time-,
      place-, and mission-sensitive requirements in the Continental United States.




                                                                                                                              DODIG-2013-080 │ 5
Finding A



                 Lack of Compliance Could Make Aircraft Susceptible
                 to Misuse
                 A lack of compliance with DoD guidance when using MILAIR could make the C-12 aircraft
                 susceptible to misuse as evidenced by three recent inquiries of senior military officials.3
                 MILAIR misuse identified in the inquiries included, but was not limited to, lack of proper
                 approval and insufficient documentation to support personal or unofficial travel, failure to
                 use the most economic mode of transportation, and failure to reimburse the Government
                 for such travel. Until USSOCOM implements corrective action to improve oversight and
                 accountability, DoD will continue to be at an increased risk that the C-12 aircraft could be
                 misused and go undetected.


                 Recommendation, Management Comments, and
                 Our Response
                 A.1 Recommendation
                 We recommend the Commander, U.S. Special Operations Command, assume overall
                 responsibility for oversight and accountability of the aircraft, to include reporting the
                 C-12 aircraft to the Chairman of the Joint Chiefs of Staff annually and before the completion of
                 their FY 2013 Operational Support Airlift review.


                 U.S. Special Operations Command Comments
                 The Chief of Staff, USSOCOM, responding for the Commander, agreed with the
                 recommendation and stated that the USASOC C-12 aircraft has already been added to the
                 USSOCOM FY 2013 OSA validation numbers.


                 Our Response
                 Comments from the Chief of Staff were responsive, and no additional comments are
                 required.

                 	3	
                       Redacted investigation reports are available from http://www.dodig.mil/foia/readingroom.html
                       (1)	
                              DoD IG Report No. 11-119226-153, “Report of Investigation: General William E. Ward, U.S. Army Commander, U.S.
                              AFRICOM,” June 26, 2012
                       (2)	
                              DoD IG Report No. 11H118481105, “Report of Investigation: Admiral James G. Stavridis, U.S. Navy Commander, United
                              States European Command, and Supreme Allied Commander, Europe,” May 3, 2012
                       (3)	
                              DoD IG Report No. H10L113678016, “Alleged Misconduct: Major General Robert B. Newman, U.S. Air Force Formerly
                              the Adjutant General, Virginia National Guard and Brigadier General Stephen L. Huxtable, U.S. Army, Formerly the
                              Assistant Adjutant General, Army, Virginia Army National Guard,” May 24, 2011




6 │ DODIG-2013-080
                                                                                                 Finding A



A.2 Recommendation
We recommend the Commander, U.S. Special Operations Command, assume overall
responsibility for oversight and accountability of the aircraft, to include providing
visibility of the C-12 aircraft to the U.S. Transportation Command and offering the aircraft
to them for centralized scheduling.


U.S. Special Operations Command Comments
The Chief of Staff, USSOCOM, responding for the Commander, agreed with the
recommendation. The Chief of Staff stated that USSOCOM is exploring the procedures
and requirements to implement the Joint Air Logistics Information System at USASOC.
Depending on the availability of the Joint Air Logistics Information System user training,
the system will be implemented between 90 and 120 days.


Our Response
Comments from the Chief of Staff were responsive. We contacted a USSOCOM official for
clarification on comments to Recommendation A.2. The official stated that USTRANSCOM
had adopted the Joint Air Logistics Information System as the standard system for
requesting and centrally scheduling OSA flights. The USSOCOM official also stated that
once the system is implemented they will upload the C-12 aircraft’s information, which
will provide visibility to USTRANSCOM officials for scheduling. Therefore, we do not
require additional comments.




                                                                                           DODIG-2013-080 │ 7
Finding B




                 Finding B
                 U.S. Army Special Operations Command Partially
                 Complied With Government Aircraft Guidance
                 USASOC officials partially complied with guidance when requesting, approving, and
                 justifying the use of Government aircraft. USASOC officials generally complied with DoD
                 guidance when requesting and approving the use of Government aircraft for MILAIR. Of
                 the 134 flight requests we reviewed from June 2011 through September 2012, USSOCOM
                 or USASOC officials properly reviewed 102, did not properly approve 5, and canceled
                 27 for other reasons. However, USASOC officials did not comply with Federal and DoD
                 guidance when justifying the use of MILAIR flights based on a cost comparison with
                 commercial airline flights. Specifically, USASOC officials did not use the C-12’s actual
                 cost when determining the most cost effective flight for administrative travel. Instead,
                 USASOC officials used the Army’s FY 2011 standard cost of $1,228 and FY 2012 standard
                 cost of $1,311. In addition, USASOC officials improperly reduced the FY 2012 cost by
                 $262 (20-percent), to account for pilot training. This occurred because USSOCOM officials
                 directed USASOC to use pre-established DoD rates and endorsed a request from USASOC
                 to use the training reduction to justify additional flights on the C-12 aircraft. As a result,
                 DoD lacks reasonable assurance that USASOC officials used the most cost effective flights
                 for administrative travel.



                 Guidance for the Use of Government Aircraft
                 Office of Management and Budget Circular A-126, “Improving the Management and
                 Use of Government Aircraft,” May 22, 1992 (the Circular), DoD Directive 4500.56, and
                 DoD Instruction 4500.43 provide guidance for using Government aircraft. Specifically,
                 they provide guidance for requesting, approving, and developing cost comparisons when
                 determining whether Government aircraft should be used. To justify using a Government
                 aircraft, the actual cost of using the aircraft must be less than the cost of taking commercial
                 airline flights.

                 To calculate the actual cost of a Government aircraft flight, the Circular states that the
                 actual cost is the variable cost of using the aircraft. The Circular defines variable costs as
                 those costs that vary depending on how much the aircraft is used. The Circular requires
                 agencies to develop a cost per flying hour rate4 for each aircraft in their inventory before


                 	4	
                       The cost per flying hour rate is the variable cost to operate a Government aircraft per annually programed hours the aircraft
                       will fly.




8 │ DODIG-2013-080
                                                                                                                                         Finding B



the beginning of each fiscal year. The cost per flying hour rates are developed by calculating
specific variable cost elements, which include the annual scheduled and unscheduled
maintenance, major component repairs and overhaul, and fuel and other fluids, and then
dividing by the programed annual flying hours for the aircraft. DoD Instruction 4500.43
provides additional guidance on the types of costs not to be included in the variable cost
per flying hour rate. Specifically, acquisition cost, military pay and allowances, civilian pay,
and training costs directly associated with aircrew training,5 will not be included in cost
per flying hour rates, because these costs are required to maintain military readiness and a
wartime capability. The variable cost per flying hour rate is then multiplied by the estimated
number of flying hours to calculate the actual cost of using a Government aircraft.

DoD Instruction 4500.43 requires the senior DoD official traveling to submit a request to
use MILAIR. To determine the most cost effective means of travel, the request includes a
comparison of MILAIR costs to commercial airline costs. To calculate commercial airline
costs, officials are required to use the Government contracted commercial airline rate
and add additional costs such as travel time, applicable per diem, rental cars, lodging, and
employees’ lost work time. If MILAIR is deemed to be more cost effective than commercial
airline flights, DoD Directive 4500.56 requires the requests to be reviewed and approved by
at least one organizational level above the senior official traveling.


Officials Generally Complied With Guidance for Using
Government Aircraft
USASOC officials generally complied with DoD guidance when requesting and approving
MILAIR. Of the 134 flight requests we reviewed from June 2011 through September
2012, USSOCOM or USASOC officials properly reviewed 102, did not properly approve 5,
and canceled 27 for other reasons. Of the 102 properly reviewed flight requests, 92 were
approved and 10 were denied or canceled because the commercial flight was more cost
effective. USASOC officials compared the cost of MILAIR to commercial air travel, which
included using the Government contracted commercial airline rate, additional travel time,
applicable per diem, rental cars, lodging, and employees’ lost work time. When MILAIR
was determined to be more cost effective, USASOC officials received approval to use MILAIR
from officials’ one organizational level above the senior traveler for most flight requests.
However, USASOC officials could not provide documentation supporting the proper
approval of five flights on the C-12 aircraft.



	5	
      The Circular also states that the costs of training crew members are not variable costs because the costs of training crew
      members do not vary according to aircraft usage. As a result, the costs of training crew members should not be included in
      the cost per flying hour rate.




                                                                                                                                   DODIG-2013-080 │ 9
Finding B



                 Officials Did Not Comply With Guidance To Justify Costs
                 USASOC officials did not comply with Federal and DoD guidance to justify the cost of using
                 the C-12 aircraft for administrative travel. Specifically, USASOC officials did not use the
                 C-12’s actual cost when determining the most cost effective flight for administrative travel.
                 Instead, USASOC officials used both the Army’s FY 2011 and FY 2012 standard cost per
                 flying hour rate. USASOC officials also improperly reduced the FY 2012 rate to account for
                 pilot training.

                 USASOC officials did not calculate the actual cost to use the C-12 aircraft in compliance
                 with the Circular and DoD Instruction 4500.43. Specifically, USASOC did not calculate the
                 cost per flying hour rate for the C-12 aircraft, despite having access to actual cost data. For
                 example, USASOC officials had access to the C-12 annual maintenance
                 costs, including the routine maintenance and the cost to replace
                 aircraft components such as the propellers, engines, and cockpit.6
                 USASOC officials could have used those costs to calculate the                                      USASOC officials
                                                                                                                  did not calculate the
                 cost per flying hour rate for the C-12 aircraft. Instead, USASOC
                                                                                                                  actual cost to use the
                 officials used the Army’s standard C-12 cost per flying hour                                         C-12 aircraft.
                 rate when justifying the use of the aircraft. Specifically, USASOC
                 used the FY 2011 Army standard cost per flying hour rate of
                 $1,228 and continued to use that rate through March 2012. In March
                 2012, USASOC officials began using the FY 2012 Army standard cost per flying hour rate of
                 $1,311. However, USASOC’s use of the Army standard rate is not representative of the actual
                 cost to operate the USASOC C-12 aircraft. For example, the Army calculates its rate using
                 its own contracted maintenance cost divided by 600 programmed flying hours per year.
                 USASOC maintains its own maintenance costs and programs only 480 flying hours per year.

                 USASOC officials also improperly reduced the Army’s $1,311 FY 2012 standard C-12 cost
                 per flying hour rate by $262 (20-percent) to account for pilot training. DoD Instruction
                 4500.43 states that costs directly associated with aircrew training will not be included in
                 the cost per flying hour rate because these costs are required to maintain military readiness
                 and a wartime capability. This exclusion of aircrew training costs is consistent with the
                 calculation of variable costs required by the Circular. Because aircrew training costs are not
                 considered a variable cost element when calculating the variable cost per flying hour rate,
                 USASOC lacked justification for subsequently reducing the Army’s standard cost per flying



                 	6	
                       USASOC officials provided FY 2012 routine maintenance cost data of $144,000. USASOC officials also provided historical
                       cost data of $83,758 to replace the propellers and $258,684 to upgrade the cockpit. USASOC officials plan to replace the
                       engines in FY 2013 for about $850,000.




10 │ DODIG-2013-080
                                                                                                                 Finding B



hour rate to account for pilot training. In addition, USASOC pilots flew 40 separate training
missions on the C-12 aircraft in FY 2012.

Without the training reduction, a USASOC official stated that USASOC could not justify
as many flights when comparing the cost between MILAIR and commercial flights. For
example, on July 15, 2012, a USASOC official approved a C-12 aircraft flight that would not
have been justified had the 20-percent training reduction not been used when comparing
the cost of MILAIR to commercial flights. See Table for a comparison of the costs related to
this trip.

Table. Comparison of a July 15, 2012, MILAIR Request With and Without the
Training Reduction
                            MILAIR Cost
                                                         Commercial         Cost          Most Cost
                Cost of      Training                    Airline Cost    Difference    Effective Flight
                                           Total Cost
                 Flight     Reduction
 With
 Training        $4,723*         ($945)         $3,778         $3,863           $85        MILAIR
 Reduction
 Without                                                                                Commercial
 Training        $4,723*             $0         $4,723         $3,863        $(860)       Airline
 Reduction

Source: DoD OIG
* The costs depicted in this table were generated by USASOC officials to justify the MILAIR flight and
include the improperly-used Army standard rate.


U.S. Special Operations Command Directed Use of DoD
Rates and Endorsed the Training Reduction
USSOCOM officials directed USASOC to use pre-established DoD rates and endorsed
the training reduction in FY 2012. On November 12, 2010, the Chief of Administrative
and Civil Law, USSOCOM, at the direction of the Deputy Commander, USSOCOM, sent an
e-mail requiring all Components to use established DoD cost per flying hour rates when
justifying the use of MILAIR instead of commercial airline flights. The direction included
the DoD FY 2011 cost per flying hour rates reported by the Under Secretary of Defense,
Comptroller’s office. Consequently, USASOC officials began using the standard Army cost
per flying hour rate for FY 2011. However, USASOC’s use of the Army standard rate is not
in compliance with the Circular and is not representative of the actual cost to operate the
USASOC C-12 aircraft.

USASOC officials requested USSOCOM approve a 20-percent reduction in the FY 2012 Army
standard flying hour rate to account for training. The USSOCOM Chief of Administrative




                                                                                                          DODIG-2013-080 │ 11
Finding B



                 and Civil Law endorsed the request on February 24, 2012, stating that the Army also
                 allows the reduction. Army officials stated that reducing the cost per flying hour for
                 training has been an Army standard practice. One Army G-3/5/7 official stated that the
                 Army interprets the guidance in DoD Instruction 4500.43 as restricting only emergency
                 procedures training from the cost per flying hour rate because the Instruction specifically
                 lists emergency procedures training. However, the Instruction states:

                             For determining military aircraft cost: (a) Acquisition cost, military
                             pay and allowances, civilian pay, and training costs (directly associated
                             with aircrew training; e.g., emergency procedures training, which
                             excludes the ability to carry passengers and cargo) shall not be included
                             in determining the hourly cost comparison rate since these costs are
                             required to maintain military readiness and a wartime capability.


                 We interpret this guidance as stating that emergency procedures training are only one
                 example of training costs that should not be included in the cost per flying hour rate.
                 Additionally, as noted earlier, the Circular excludes aircrew training costs from the
                 calculation of variable costs.       The Under Secretary of Defense for Acquisition,
                 Technology, and Logistics, as the proponent of DoD Instruction 4500.43, should update
                 DoD Instruction 4500.43 to clarify costs, including aircrew training costs that will not be
                 included when determining the cost per flying hour rate for OSA aircraft.


                 Most Cost Effective Flights May Not Have Been Used
                 USASOC’s use of the Army’s standard cost per flying hour rate did not result in a proper cost
                 comparison for at least 97 C-12 aircraft flights from June 2011 through September 2012.
                 Until USASOC begins using the C-12’s actual cost per flying hour rate when determining
                 whether MILAIR or commercial flights are more cost effective, DoD will continue to
                 lack reasonable assurance that USASOC officials used the most cost effective flight.
                 Additionally, the use of the Army’s standard C-12 cost per flying hour rate in FY 2013 may
                 limit the aircraft’s use because the Army’s standard cost per flying hour rate increased
                 26 percent from $1,311 in FY 2012 to $1,646 in FY 2013, whereas USASOC’s actual cost
                 per flying hour rate for the C-12 may be less. USASOC should develop and use the actual
                 cost per flying hour rate for justifying the use of its C-12 aircraft.




12 │ DODIG-2013-080
                                                                                                     Finding B



Management Comments on the Finding and
Our Response
The Chief of Staff, USSOCOM, provided comments regarding USASOC using a 20-percent
training reduction.


Management Comments on the Training Reduction
The Chief of Staff, USSOCOM, stated he disagrees that USSOCOM “directed” USASOC to
apply a 20-percent training reduction when calculating costs for the C-12 aircraft. He
added that USSOCOM provided its legal opinion but did not direct USASOC to use the
training reduction. The complete text of the Chief of Staff’s comments is in the Management
Comments section of the report.


Our Response
We agree that USSOCOM officials did not direct USASOC to use the 20-percent reduction.
As stated in the report, USSOCOM endorsed the request to use the 20-percent reduction
and directed USASOC to use pre-established DoD rates.


Recommendations, Management Comments, and
Our Response
B.1 Recommendation
We recommend the Under Secretary of Defense for Acquisition, Technology, and Logistics
update DoD Instruction 4500.43 to clarify costs, including aircrew training costs, that will not
be included when determining the cost per flying hour rate for Operational Support Aircraft.


Assistant Secretary of Defense for Logistics and Materiel
Readiness Comments
The Assistant Secretary of Defense for Logistics and Materiel Readiness, responding for
the Under Secretary of Defense for Acquisition, Technology, and Logistics, agreed with the
recommendation. He stated that Office of the Under Secretary of Defense for Acquisition,
Technology, and Logistics officials have formed a working group to determine exactly
what changes are needed to meet the intent of the recommendation.




                                                                                              DODIG-2013-080 │ 13
Finding B



                 Our Response
                 Comments from the Assistant Secretary of Defense for Logistics and Materiel Readiness,
                 responding for the Under Secretary of Defense for Acquisition, Technology, and Logistics,
                 were responsive, and no additional comments are required.


                 B.2 Recommendation
                 We recommend the Commanding General, U.S. Army Special Operations Command
                 develop and use the actual cost per flying hour rate for the C-12 aircraft.


                 U.S. Army Special Operations Command Comments
                 The Chief of Staff, USASOC, responding for the Commanding General, agreed with the
                 recommendation. He stated that USASOC officials have developed an actual cost per
                 flying hour and will begin using it once it is approved by USSOCOM.


                 Our Response
                 Comments from the Chief of Staff were responsive, and no additional comments are
                 required.




14 │ DODIG-2013-080
                                                                                                 Appendix




Appendix
Scope and Methodology
We conducted this performance audit from August 2012 through March 2013 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

To accomplish our objective, we coordinated with or interviewed officials from the Office
of the Under Secretary of Defense for Acquisition, Technology, and Logistics; Joint Staff,
J-4 Logistics; USSOCOM; USTRANSCOM; the Department of the Army G-3/5/7; USASOC;
and the U.S. Army Operational Support Airlift Agency. We also reviewed and analyzed
Federal, DoD, Army, and USSOCOM guidance.

We conducted site visits to USSOCOM, USTRANSCOM, and USASOC from September 2012
through November 2012. In addition, we reviewed USASOC MILAIR flight requests
and supporting documentation. Specifically, we obtained 166 MILAIR flight requests
submitted from June 6, 2011, through September 18, 2012, to determine whether USASOC
properly requested, approved, and justified MILAIR flights. From the 166 flight requests,
we limited our review to the 134 requests for travel on the USASOC C-12 aircraft. The
remaining 32 requests were for travel on other aircraft. In addition, we conducted a
completeness test of 36 flight requests to determine if the population of 166 requests in
the legal department contained all 134 requests for the USASOC C-12 aircraft in the flight
request validator office. Our statistical sample of 36 yielded no exceptions. We reviewed
contracts for the C-12 aircraft to determine actual maintenance and repairs costs. We
also reviewed and analyzed flight logs from the USASOC flight detachment to determine
how many hours the USASOC C-12 was used per year compared to the number of hours
it was programed.


Use of Computer-Processed Data
We used computer-processed data from a USASOC Microsoft Access database to determine
whether the flight request documents we obtained from USASOC were complete. We
compared the data from the spreadsheet to the hard-copy flight request documents to
ensure our universe was complete. Based on the comparison, we determined that the
computer-processed data were sufficiently reliable to support our findings and conclusions.




                                                                                          DODIG-2013-080 │ 15
Appendix



                 Use of Technical Assistance
                 We consulted with the OIG Quantitative Methods Division to obtain a statistical sample
                 to verify the completeness of the MILAIR universe in the USASOC flight request validator
                 office and with the universe in the USASOC legal department.


                 Prior Coverage
                 No prior audit coverage has been conducted on the justification of MILAIR during the last
                 5 years.




16 │ DODIG-2013-080
                                                   Management Comments




Management Comments
Assistant Secretary of Defense for Logistics and
Materiel Readiness




                                                         DODIG-2013-080 │ 17
Management Comments



                 U.S. Special Operations Command




                                               17
18 │ DODIG-2013-080
                                       Management Comments



U.S. Army Special Operations Command

                                           Final Report
                                             Reference




                                            Revised page 5,
                                             renumbered
                                          remaining footnotes.




                         18                   DODIG-2013-080 │ 19
Acronyms and Abbreviations



                 Acronyms and Abbreviations
                           MILAIR Military Airlift
                              OSA Operational Support Airlift
                           USASOC U.S. Army Special Operations Command
                         USSOCOM U.S. Special Operations Command
                      USTRANSCOM U.S. Transportation Command




20 │ DODIG-2013-080
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions on
retaliation, and rights and remedies against retaliation for protected
disclosures. The designated ombudsman is the DoD IG Director for
Whistleblowing & Transparency. For more information on your rights
and remedies against retaliation, go to the Whistleblower webpage at
              www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                       Congressional Liaison
                Congressional@dodig.mil; 703.604.8324

                            DoD Hotline
                            800.424.9098

                             Media Contact
                Public.Affairs@dodig.mil; 703.604.8324

                         Monthly Update
                 dodigconnect-request@listserve.com

                        Reports Mailing List
                  dodig_report-request@listserve.com

                               Twitter
                         twitter.com/DoD_IG
D e pa r t m e n t o f D e f e n s e │ I n s p e c t o r G e n e r a l
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
